<html>
<title> - THE CAPITOL VISITOR CENTER: THE VISITOR EXPERIENCE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
           THE CAPITOL VISITOR CENTER: THE VISITOR EXPERIENCE

=======================================================================


                                HEARING

                               Before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                HELD IN WASHINGTON, DC, OCTOBER 17, 2007

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html




                     U.S. GOVERNMENT PRINTING OFFICE

40-621 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama

                           Professional Staff

                 S. Elizabeth Birnbaum, Staff Director
                 Will Plaster, Minority Staff Director


           THE CAPITOL VISITOR CENTER: THE VISITOR EXPERIENCE

                              ----------                              


                      WEDNESDAY, OCTOBER 17, 2007

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:08 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) presiding.
    Present: Representatives Brady, Capuano, Davis of 
California, Ehlers and McCarthy.
    Staff Present: Liz Birnbaum, Staff Director; Kevin 
Peterson, Professional Staff; Teri Morgan, Deputy Chief 
Counsel; Matt Pinkus, Professional Staff/Parliamentarian; 
Kristin McCowan, Chief Legislative Clerk; Matthew DeFreitas, 
Staff Assistant; Kyle Anderson, Press Director; Fred Hay, 
Minority General Counsel; Bryan T. Dorsey, Minority 
Professional Staff; and Salley Collins, Minority Press 
Secretary.
    The Chairman. I would like to call this meeting of House 
Administration to order. And I would like to recognize myself 
for 5 minutes. Upon its opening in the fall of 2008, the 
Capitol Visitor Center will provide visitors with a unique, 
one-of-a-kind educational experience. The CVC will offer the 
only exhibit of its kind in the country dedicated exclusively 
to educating the public about the history of the U.S. Capitol 
and the United States Congress. Better informed constituents 
make for a better informed electorate, and the anticipated 
opening the of the CVC promises an exciting future.
    We have with us here today the person who will lead the CVC 
into the future, Ms. Terrie Rouse. Ms. Rouse was recently 
appointed Chief Executive Officer of the CVC and has extensive 
experience in managing museums throughout the country, 
including museums in Kansas City, New York, Maine, and, I am 
proud to say, the great City of Philadelphia. Also with us 
today is Mr. Tom Stevens, U.S. Capitol Director of Visitor 
Services. Mr. Stevens has been working with the guides since 
1985 and brings an incredible amount of knowledge to the table. 
Last but certainly not least is Chief Phillip Morse with the 
U.S. Capitol Police. Chief Morse is a seasoned veteran, 
providing security to the Capitol complex since 1985. Welcome, 
all of you.
    Let me take this time to say I appreciate all the work that 
the panelists do to ensure the Members and staff and visitors 
are in a safe, secure environment, while having the best 
visitor experience possible. I look forward to hearing your 
accounts of how we will engage citizens in their visit to the 
Capitol and where we go from here with regard to the future of 
the CVC. I would now like to recognize the ranking member, Mr. 
Ehlers, for any remarks that he would like to make.
    [The statement of the Chairman follows:]
    [GRAPHIC] [TIFF OMITTED] 40621A.001
    
    [GRAPHIC] [TIFF OMITTED] 40621A.002
    
    Mr. Ehlers. Thank you, Mr. Chairman, and thank you for 
calling this hearing. It is a very important one, and it 
certainly has generated a lot of Member interest. I really 
think, Mr. Chairman, that most Members of Congress do not 
appreciate or understand what a tremendous experience this is 
going to be for our citizens to visit the Visitor Center. It is 
the first time in the history of this Nation, we will have a 
good history of our Government and our Capitol available for 
the public to view in a multimedia way and to really prepare 
them for the experience of going through the Capitol.
    My chief of staff was just talking to me this morning. He 
went to Britain last year and took a tour of the House of 
Commons, the entire Parliament. He was vastly impressed with 
the tour. Of course, he had to pay 5 pounds or something like 
that to get in. Nothing is free over there. Even the cathedrals 
charge you, but we will continue to do it for free. We have 
never done justice to our Capitol and to our history in the 
tours that we have given. This Visitor Center finally gives us 
the opportunity to really improve the whole operation.
    The Capitol Visitor Center is the largest extension of the 
Capitol in its 212-year history. It is approximately three-
quarters the size of the Capitol Building itself. Very few 
people, even among some of my colleagues, I think, realize the 
extent of it. And I know that you have taken the tour through 
it, but I guess you just took it this week, Susan. It is just 
astonishing. And the great things we are going to be able to 
do, it is really wonderful. I will not give my entire opening 
statement.
    I will just ask that it be submitted to the record. But one 
issue I do want to mention, because some of our colleagues have 
made an issue about staff-led tours. We have no intention of 
leaving our colleagues or their staffs out of this process, but 
we have to recognize that it is going to be a totally different 
situation because their visitors are going to be well-prepared 
for the tour by having gone through the Visitor Center first. 
And we expect their staffs to continue to be involved in 
pointing out items of interest from their particular State. I 
would regard it instead of staff-led tours, we will have staff-
hosted tours. Members' staff will see to the needs of their 
visitors from their State, will make sure that the unique 
interests of their visitors are accommodated. So we are not 
doing away with staff-involved tours. They are just going to 
take a different form because of the different situation here.
    With that, Mr. Chairman, I yield back and look forward to 
the testimony. Thank you.
    [The statement of Mr. Ehlers follows:]
    [GRAPHIC] [TIFF OMITTED] 40621A.003
    
    [GRAPHIC] [TIFF OMITTED] 40621A.004
    
    [GRAPHIC] [TIFF OMITTED] 40621A.005
    
    [GRAPHIC] [TIFF OMITTED] 40621A.006
    
    [GRAPHIC] [TIFF OMITTED] 40621A.007
    
    The Chairman. Thank you, Mr. Ehlers.
    Anybody.
    Mr. Capuano.
    Mr. McCarthy.
    Ms. Davis.
    I welcome the members of the panel, and I ask that they 
summarize their statements with the initial time allotted to 
each witness. Without objection, all written statements from 
the witnesses will appear in the record of the hearing. None 
heard, no objection.

   STATEMENTS OF TERRIE S. ROUSE, CEO FOR VISITOR SERVICES, 
CAPITOL VISITOR CENTER; THOMAS L. STEVENS, DIRECTOR OF VISITOR 
 SERVICES, UNITED STATES CAPITOL; AND CHIEF PHILLIP D. MORSE, 
           SR., CHIEF OF POLICE, U.S. CAPITOL POLICE

    The Chairman. We will begin with Ms. Terrie Rouse, and then 
move to Mr. Tom Stevens, and then end with Chief Morse.
    So Ms. Terrie Rouse, you are on.

                  STATEMENT OF TERRIE S. ROUSE

    Ms. Rouse. Thank you.
    Mr. Chairman, Congressman Ehlers, members of the committee, 
thank you for inviting today to talk about the Capitol Visitor 
Center and the wonderful visitor experience that awaits all who 
come to their United States Capitol next fall. First, I would 
like to say what an honor and a privilege it is for me to be 
working here. I want to thank the Acting Architect of the 
Capitol, Stephen Ayers; CVC Transition Director David Ferguson; 
the entire AOC staff; the House and Senate Oversight 
Committees; and the congressional leadership for their support 
and assistance over the past few weeks.
    I also want to acknowledge and thank the gentlemen who are 
at the table with me today: Tom Stevens, Director of the 
Capitol Visitor Services, who oversees a first class operation; 
and Chief Morse and Assistant Chief Dan Nichols, for working 
with us to ensure our visitors are safe and secure during their 
visit.
    And I thank the committee, leadership, and Congress for 
giving me the opportunity to be part of history, opening the 
doors to the largest expansion of the Capitol Building that is 
devoted to the citizens of the United States. I believe that 
the CVC is a symbolic door to the Nation, a portal that will 
become an inviting place to remind visitors of their role as 
citizens. As an extension of the Capitol, it will provide a 
fitting welcome and introduction to the People's House so all 
may witness the workings of our legislative process.
    To provide the committee with a bit of background about 
myself, I am originally from Youngstown, Ohio. I received my 
bachelor of arts degree in intercultural studies from Trinity 
College, that is in Connecticut; a masters of professional 
studies from Cornell University; and a masters degree in 
African History from Columbia University. Over the years, I 
have been an educator serving as an adjunct professor or 
instructor at a number of universities across the country, 
including New York University, Columbia University and Cornell 
University.
    I spent a number of years in the museum world, most 
recently as executive vice president and director of museums 
for Kansas City's Union Station, a 900,000-square foot historic 
landmark. I have also provided consultant services to a number 
of cultural, nonprofit organizations, including a joint project 
between the City of Philadelphia, the National Park Service and 
the Independence National Historic Park. I worked with the City 
of Charleston on the development of the International African 
American Museum.
    I have been on the job now for a month. I am very impressed 
with the planning and the work that has been done before I 
arrived. Since my arrival in Washington, one of my top 
priorities is to recruit and to hire a staff to prepare the CVC 
to receive visitors. Other operational issues will be working 
with the congressional leadership on the advanced ticketing 
system, developing a CVC Web site, developing a transportation 
plan and reaching out with a public information campaign.
    There is much to do. But it is clear that everyone has the 
same wonderful vision, enhance the visitor experience to the 
U.S. Capitol. Throughout my career, I have learned one thing. 
During each person's visit to a museum, an art gallery or an 
exhibit, there is at least one, awe moment, an experience or 
sight that literally takes one's breath away and inspires. My 
goal is that every person who comes to the CVC will feel 
welcome and will look up at the Capitol Dome through the 
skylight; will see the model of the Statue of Freedom in the 
Great Hall and experience at least one awe moment. Once they 
experience that moment, we hope they will become engaged, 
appreciate what we do at the Capitol, and understand why the 
House and the Senate operate in the way they do, and celebrate 
their roles in our representative government.
    Mr. Chairman, the Capitol is a unique building. Not only is 
it a working office building; it is a living museum. Over the 
years, visitors had to stand outside in the cold, rain or 
extreme heat and humidity while waiting to tour the Capitol. 
Congress recognized the need in 1998 for the construction of a 
Visitor Center to provide greater security for all persons 
working in or visiting the United States Capitol, and a more 
convenient place in which to learn about the work of Congress.
    In keeping with Congress's intent, along with the increased 
focus on safety and security, the mission of the CVC is to 
provide a seamless visitor experience. This experience is 
enhanced by the ease and comfort by which visitors can move 
about the CVC, visit the exhibits and benefit from the level of 
service and many amenities provided to them for the first time, 
such as a restaurant, many restrooms and orientation theatres. 
Most importantly, the exhibits and programs about the working 
history of the Congress and architecture of the Capitol are 
designed to inspire generations of Americans, We, the People, 
about the legislative process and our representational 
government.
    While there will be a focus on the history of Congress, it 
is important to remember that the CVC is a new structure, a 
21st century facility. Therefore, we are using state-of-the-art 
technology and modern conveniences to vastly improve the level 
of our visitor services. I mentioned this earlier; we provide a 
number of amenities to guests to the Capitol for the first 
time. In addition, a number of other improvements are planned.
    First and foremost will be the implementation of a 
comprehensive tour program. Our professional, highly trained 
guides will be able to tailor our tours to their audiences, 
whether it is a large group of Philadelphia eighth graders on a 
class trip, seniors from Grand Rapids, Michigan, stopping in 
Washington as part of a fall foliage tour, or architects coming 
to marvel at the complexity of building such a stately 
underground facility.
    Following the inaugural year of the CVC, additional 
specialized tours will be developed to further interpret the 
role of Congress and integrate the other treasures of Capitol 
Hill, such as the Library of Congress, the U.S. Botanic Garden 
and the Capitol grounds. While this is a decision that will be 
made by congressional leadership, not by me and not by the AOC, 
we believe we will serve Members of Congress by better 
integrating, not eliminating, the staff-facilitated functions 
in the tour program. We look forward to a continued discussion 
on the issue with congressional leadership to come to a final 
determination on this and many other operational issues over 
the next several months.
    During their visits, we intend to help our visitors walk a 
mile in Members' shoes. This will begin as soon as they enter 
the CVC, view the orientation film, visit the virtual House and 
Senate Chambers and then the Capitol, where they will see their 
Representatives and Senators in action.
    An invaluable tool in this process will be assisted 
listening devices, head sets that connect the visitors to their 
tour guides. The advantages of this technology are many. 
Visitors can move about more freely while still hearing their 
guide clearly, without the distractions of other groups. This 
will also greatly reduce the noise level in the Capitol, as 
guides will speak in a normal volume and will not have to 
compete with ambient noise and other guides. Most importantly, 
in the event of an emergency, the guides are able to manage 
groups, communicate important information, and quickly and 
effectively lead them to safety if necessary.
    Of course the visitor experience begins long before a guest 
steps foot in the CVC. In that regard, we intend to set the 
tone of the individual's Capitol tour when they visit the CVC 
Web site, book their tours through an advanced reservation 
system, or ask a staff member for directions to the restaurant 
or their Member's office.
    Mr. Chairman, in the Exhibition Hall, carved into the white 
marble are the words, ``Out of many, one.'' our Founding 
Fathers selected these words to describe the coming together of 
13 colonies into one united country. Today we come together 
united in our goal to make a visit to our Nation's Capital an 
incredible patriotic, educational, and inspiring experience.
    I look forward to continuing to work with the committee, 
our oversight committees, the congressional leadership and the 
AOC to make a visit to the Capitol Visitor Center and the 
United States Capitol the experience of a lifetime. This 
concludes my statement. I will be pleased to answer any 
questions you may have.
    [The statement of Ms. Rouse follows:]
    [GRAPHIC] [TIFF OMITTED] 40621A.008
    
    [GRAPHIC] [TIFF OMITTED] 40621A.009
    
    [GRAPHIC] [TIFF OMITTED] 40621A.010
    
    [GRAPHIC] [TIFF OMITTED] 40621A.011
    
    [GRAPHIC] [TIFF OMITTED] 40621A.012
    
    The Chairman. Thank you, Ms. Rouse.
    Mr. Stevens.

                 STATEMENT OF THOMAS L. STEVENS

    Mr. Stevens. Thank you. Mr. Chairman, Congressman Ehlers, 
members of the committee, I am honored to be before you today 
to discuss the visitor experience as we transition into the new 
Capitol Visitor Center.
    Before I begin, however, I want to thank the members of 
committee for their continued support, the men and women of 
Capitol Guide Service and Congressional Special Services 
Office. It is through your efforts that we have helped to 
ensure that we have had an open building for millions of 
visitors throughout the years from around the world, and I 
appreciate that support very much. Thank you.
    A little background about the Guide Service and visiting 
the Capitol. Visitors first began coming to the Capitol in 
large numbers in 1876 during the centennial celebrations. And 
to help deal with that influx of visitation and make sure there 
was some quality assurance with regard to the type of 
information that they were given, the idea was proffered to 
have some appointed guides. And under the jurisdiction of both 
Sergeants at Arms, that came to reality. And the Guide Service 
has grown many times since then.
    But in 1970, the Reorganization Act, Congress looked very 
closely at the Guide Service and the Congressional Special 
Services Office and actually brought the Capitol guides under 
the Federal Government in a sense that it created a Capitol 
Guide Board, which not only included both Sergeants at Arms but 
also incorporated the Architect of the Capitol's Office. And we 
still work under the jurisdiction of that board today.
    In 1995, the board underwent a review of visitation at the 
Capitol. As a result of that, in 1996, the Congressional 
Special Services Office was joined with the Capitol Guide 
Service. And the Congressional Special Services Office has in 
fact been in existence, or had in fact, been in existence since 
1983, prior to being merged with the Capitol Guide Service. And 
today, as a combined effort, we provide access to a little over 
a million visitors per year to the Capitol.
    Since 9/11, the challenges to the Capitol have been many. 
The responsibilities of the Capitol Guide Service have 
broadened greatly and are actually quite tightly married to the 
Capitol Police and the safety demands placed upon them. As a 
result of these additional responsibilities, the number of 
visitors that we are able to personally take through the 
building has diminished. We deploy our staffing to staff 
tunnels and provide access via numerous points of ingress to 
the Capitol as well as help manage crowd conditions inside and 
around the building as well. The end result of this is, many of 
these large groups, mostly school children, junior-high-school-
age children simply have little recourse but to call upon their 
Member's office once my staffing has been depleted.
    The new Capitol Visitor Center and the additional staffing 
that is associated with that will once again enable us to 
provide a pre-9/11 level of service, and that is, simply 
provide a professional tour guide for everyone wishing to visit 
the Capitol. The much anticipated opening of the Visitor Center 
will enable us to provide the state-of-the-art experience of 
those visiting this great institution. It has always been our 
mission to provide an inviting, educational, and inspiring 
experience for the visitors, and the Capitol Visitor Center is 
the cornerstone of taking that goal to the next and very 
highest level.
    Not only will it provide many amenities, but it also is 
going to provide an educational experience second to none. I am 
sure you have all been in the facility and have seen how 
impressive it is. I can assure you that the information 
provided there will be equally impressive.
    And in closing, I want to just point out, we do want to 
work very closely with this committee, continue working with 
the Architect of the Capitol, as we have been for years, Ms. 
Terrie Rouse and her distinguished team. And frankly, this is 
the opportunity of a lifetime for the visitor to the Capitol. 
We look forward to it. I would be happy to answer any questions 
that you have.
    [The statement of Mr. Stevens follows:]
    [GRAPHIC] [TIFF OMITTED] 40621A.013
    
    [GRAPHIC] [TIFF OMITTED] 40621A.014
    
    The Chairman. Thank you, Mr. Stevens.
    Chief Morse.

               STATEMENT OF PHILLIP D. MORSE, SR.

    Chief Morse. Good morning, Chairman Brady, Congressman 
Ehlers and the members of the committee. I want to thank you 
for the opportunity to appear before you today to discuss the 
security aspect of the visitor experience at the Capitol 
Visitor Center. The opening of the Capitol Visitor Center next 
year will make the achievement of a long-time held goal of the 
United States Capitol Police.
    Back in 1998, after the fatal shootings of Officer Jacob 
Chestnut and Detective John Gibson in the Capitol Building, 
planning for the Capitol Visitor Center began in earnest. Since 
that time, the Capitol Police has worked in partnership with 
the Architect of the Capitol to help design the CVC in such a 
manner as to not only enhance and enrich the visitor experience 
but also enhance security of the United States Capitol.
    As the construction of the facility progresses and we are 
prepared for its opening, it is clear that both goals will be 
achieved. The main advantage that the CVC presents from a 
security perspective is the ability for the Capitol Police to 
conduct security screening of visitors in a state-of-the-art 
facility that was designed for that purpose.
    As we saw in 1998, the historic and ceremonial entrances of 
the Capitol were never intended to support the security 
screening that is necessary in today's threat environment. The 
opening of the CVC, with its entryways, custom designed to 
support security equipment, police officer positioning, and 
technology to detect and contain threats, all in a seamless, 
welcoming environment, will serve to enhance the visitor 
experience, while mitigating current and emerging threats.
    A key issue that remains for discussion is the manner in 
which tours will be conducted. The Capitol Police will yield to 
the expertise of Ms. Terrie Rouse and her team to formulate the 
best possible visitor experience. Our interest is in the area 
of response to emergencies that affect tour groups. The events 
of September 11th, 2001, and subsequent evacuations, lockdowns 
and other security events at the Capitol have demonstrated a 
need for the Capitol Police to limit the number of people in 
the Capitol at any given time and also have a means to give 
instructions to building occupants, including tour groups, in 
an emergency situation.
    When the Capitol Visitor Center opens in November, we will 
have the opportunity to merge the constituent service of the 
staff-led tours with the professional presentation provided by 
the Capitol's Guide Service. The concept of staff-integrated 
tours led by a member of the Capitol Guide Service will allow 
the Capitol Police to better regulate the flow of visitors into 
the Capitol, thereby eliminating overcrowding and congestion in 
the hallways. Further, since we will be able to maintain 
positive communications contact with the tour guides as they 
move through their groups--move with their groups throughout 
the building, we can provide real-time direction during an 
emergency, such as evacuating a certain route or relocating to 
a safe location, depending upon the threat.
    The Capitol Police will provide training to tour guides 
that include evacuation routes and procedures, assembly areas 
outside of the Capitol, familiarization with building lockdown 
procedures and areas within the building to relocate groups in 
response to various threats. This training, combined with the 
concept of staff-integrated tours, will ensure those who lead 
tour groups within the Capitol can offer an informative, safe 
experience for our guests and your constituents.
    Again, I want to thank you for the invitation to appear 
before you today. As you know, one of my responsibilities is to 
provide advice and guidance on security-related matters so that 
the committees of jurisdiction can make decisions and set 
policy based upon totality of circumstances. The Capitol Police 
is committed to providing the highest level of security and law 
enforcement services while exercising the will of Congress to 
balance visitor access and security within the Capitol Complex. 
That concludes my testimony, Mr. Chairman, and I would be happy 
to answer any questions at this time.
    [The statement of Chief Morse follows:]
    [GRAPHIC] [TIFF OMITTED] 40621A.015
    
    [GRAPHIC] [TIFF OMITTED] 40621A.016
    
    The Chairman. Thank you, Chief.
    I do have some common questions and concerns. It is a 
visible building, and a lot of things have been said about it. 
I would just like to say I did receive a letter with 100 plus 
Member signatures on it concerning the tours. But rather than 
me ask the questions, I would rather have our committee 
participate. And instead of me dominating the questions that 
are right on the top of the list, and let them participate and 
ask their questions, and I will come back with some questions.
    So, with that, I would like to recognize Mr. Ehlers.
    Mr. Ehlers. Thank you. First, thank you all for being here. 
I look forward very, very much to the opening of the Visitor 
Center. And if I have the time, which I doubt that I will, I 
would love to just stand there and watch the looks on the faces 
of the visitors as they go through. It will be a totally new 
and different experience to them.
    The one issue that of course is troubling to our 
colleagues, at least to my colleagues, and I suspect on your 
side as well, is the issue of staff-led tours and what is going 
to happen there. And perhaps, Mr. Chairman, we should have some 
open meetings to discuss with our colleagues what is happening 
and bring in the Chief particularly to talk about the safety 
and security aspect of what will happen.
    I would also--I have here the list that has been circulated 
of the misinformation that has been handed out by some of the 
guides. But I certainly don't want to condemn all the staff-led 
tour guides, because some offices work very hard at educating 
their staff members well to give decent tours. But I think the 
real idea is to coordinate this whole operation of staff-led 
tours, or maybe we have to call them staff-hosted tours, and 
coordinate that with the Guide Service so that we have 
professional guides handling the majority of the tour. Then the 
staff members can simply give the tours to the particular areas 
of interest to the State that their Representative represents. 
So I just wanted to get that comment on the record.
    I would appreciate any comments that Mr. Stevens or Chief 
Morse would have about that proposal of somehow trying to work 
to coordinate these with the professional tour guides taking 
most of the responsibility but with the staff members along to 
add hometown flavor to various parts of the Capitol.
    Any comments on that?
    Mr. Stevens. Congressman Ehlers, thank you. The concept of 
staff-led tours--and that term itself has kind of gained a life 
form of its own. But it has always existed. I can remember it 
22 years ago, giving tours at the Capitol. Staff would bring 
family members over, special guests and give tours of the 
Capitol. And that certainly is not and should not ever be 
eliminated or made difficult.
    The staff-led tours of today not only include those special 
guests but, as I mentioned in my testimony, what was taken away 
essentially following 9/11 was the ability for one to come to 
the Capitol and simply walk into the Capitol as a general 
admission venue. Everyone must now be with a staff person on a 
staff-led tour or with a professional guide. And doing that of 
course is quite necessary. But as a result, it is very taxing 
on manpower. And as a result, the people that would otherwise 
be walking around looking on their own are looking to the 
Members' offices to bring them in to do that self-guided tour.
    And much to the credit of staffers who previously did not 
give tours, as you point out many did their homework and 
provide very good tours. It becomes problematic, in my opinion, 
when offices get deluged with extremely large groups. And it is 
not uncommon for 2,000 to 3,000 in number to call upon a 
Member's office to give a tour on a particular day or a 
particular afternoon. And it sends staffers scrambling to find 
additional staffers to bring those people in. Each staffer is 
permitted to bring up to 15 guests in with them. So, 
oftentimes, they are simply trying to find enough staffers to 
get the numbers through screening, abide by the rules and enter 
the Capitol Building. And some of those interns are called out 
on short order and simply aren't well prepared.
    So I think it is by default, they are simply not engaged 
regularly on giving tours and well enough equipped to do that. 
But, again, I think the foundation of staffers who give tours 
do a very good job, frankly.
    Now, as far as the Visitor Center is concerned, what we 
want to do is get back to that level of service where everyone 
coming to the Capitol who would like to have a tour of the 
Capitol is going to get a tour of the Capitol with a 
professionally trained guide if that is their choosing. If a 
Member's office wishes to show those individuals around, that 
also will be an option. We are going to do that by providing 
them access right up to the orientation theatres. And we can 
incorporate them into the guided tour through the Capitol.
    Mr. Ehlers. Okay.
    Chief, you have any comments?
    Chief Morse. Yes. Thank you, sir. The only interest 
certainly I have is that it is an opportunity with staff-led 
integrated tours for us to be able to communicate with the tour 
guides in an emergency situation, and certainly that that 
information be able to be passed along to the constituents and 
the staff in order to either evacuate or relocate to a safe 
area. So it is positive communication, and it allows us to 
direct people in the building more efficiently in a critical 
incident.
    Mr. Ehlers. So you will be in radio contact with the 
professional guide at all times?
    Chief Morse. Right. And that is an extension of what we 
currently do. So, that is sort of a seamless transition, if you 
will, in security that we currently do. And certainly it has 
been tested many times since 9/11 with some of the evacuations 
that have occurred. So, it works very well, and we think it 
would work in this situation and still also offer the staff-led 
tour flavor with the visitor experience as well.
    Mr. Ehlers. Thank you. I see my time is up. I yield back.
    The Chairman. The gentleman from Massachusetts.
    Mr. Capuano. Gentlemen, I am just not clear on some things. 
Are you talking about ending--I mean, let me start from the 
beginning. We talk about pre-9/11 as if staff-led tours didn't 
start until after that. I will tell you unequivocally that in 
my office I had staff-led tours before 9/11, and I have had 
them since 9/11. So 9/11, though it did change some procedures 
and all that, the ability to have my staff bring my 
constituents at my choosing to tour the Capitol led by them, it 
really hasn't changed. The procedure, the safety, the security 
has, and that is good.
    Is the suggestion on the table that my staff will no longer 
be allowed somehow to provide a personalized tour, even just 
walking through the Capitol, without being part of an 
integrated tour? Or is it that an integrated tour will be added 
to that option as a better and improved, more substantial 
option? Which is it?
    Mr. Stevens. Congressman, if I may, it is the latter. We 
are actually adding that component, so it is an additional 
option for Members' offices. And I fully agree, staff-led tours 
have been a staple since, again, I started in 1985, and there 
were staffers giving tours back then.
    Mr. Capuano. Right.
    Mr. Stevens. I think the component that has changed is the 
fact people cannot wander the building on their own and take a 
tour. And so these large groups are----
    Mr. Capuano. And I just want to make sure we are on the 
same page.
    Ms. Rouse and Chief Morse, do you agree that it is an 
additional option as opposed to a choice?
    Ms. Rouse. It is indeed an additional option. By joining a 
guided tour, the staffers will be able to avail themselves of 
all the amenities of the CVC. They won't miss the film, which 
is absolutely magnificent and sort of sets the pace for what 
people will see on the Capitol tour. And also, as people return 
from the Capitol tour and have had the experience with the 
headphones on, the devices, they will hear the guides talking.
    Mr. Capuano. I understand, but it is an option. It is not--
--
    Ms. Rouse. It is an option.
    Mr. Capuano. Chief, do you agree with that?
    Chief Morse. I concur.
    Mr. Capuano. Okay. If that is the case, then most of my 
concerns are just settled, to be perfectly honest. Look, I love 
the tours that are given by the professionals. They are 
thorough. They are thoughtful. They are fun in my opinion. And 
I encourage my constituents when they come to take them, if you 
want the truth. They have been more difficult since 9/11, and I 
think it is a great idea to enhance them. At the same time, not 
all my constituents want to avail themselves of that. They want 
options. I want options. And I will tell you that most of my 
staff has taken the training that has been offered to make 
their experience or the experience they give to my constituents 
more useful and more fun. And I actually applaud you for, you 
know, helping staff do a better job.
    Now, as long as it is an option in addition, I will tell 
you that all of my concerns just went away. Because my next 
question was going to be, if you are going to try to stop them, 
what are you going to do, arrest my staff? You know, good luck. 
I think that might upset a few Members of Congress. But if that 
is not going to happen, it is not a big deal. With that, then 
all the rest of my questions have pretty much been answered.
    I thank you for adding to the possibilities, and I will 
tell you that I look forward to the CVC. I have been through it 
twice already. I look forward to going through it again. And I 
will simply tell you that I think you are doing a great job, 
and keep it up, and I look forward to having an even more 
pleasant experience for my constituents who choose to take it. 
Thank you. I yield back.
    The Chairman. Thank you.
    Mr. McCarthy.
    Mr. McCarthy. Well, first, let me thank you, Mr. Chairman, 
for having this hearing.
    My question is, Ms. Rouse, you said in your comment about 
the Web site that they would go to the Web site and book their 
tickets by themselves. I was wondering, is there a way we can 
work with our staff, because a lot of people call my staff, and 
then they say everything they want to do in Washington, and we 
would go through the process of trying to get them tickets for 
all the different items. How would that work, the Web site 
itself?
    Ms. Rouse. Well, first of all, we are still working on the 
advanced ticketing system. We just started that process a week 
or so ago. But our goal is to have Members' offices be able to 
arrange the tickets, the reservation, if you will, and also 
sort of customize it. And the goal may be that your office 
would have your name and your photo there perhaps, a little 
information about the State and that you are affording them the 
opportunity to have the tour. So that is basically our goal.
    But we also want the public, particularly groups, to avail 
themselves of the advanced ticketing system, which allows us to 
have a greater control over who is coming, certainly helps our 
life-safety issues so we don't hit high impact times, and those 
are the elements of the advanced ticketing system we are hoping 
to work through over the next 5 to 6 months.
    Mr. McCarthy. And then my only other question would be 
maybe to the Chief and Ms. Rouse. We are going to start feeding 
so many people into one certain place, and I mean, I guess I am 
just assuming the House has so many more visitors than the 
Senate side, because every time I walk through, it looks that 
way, and there are more Members of the House. Are there any 
concerns you have from the standpoint of people loitering when 
they are done with the tour with one side of the Capitol or 
anything?
    Chief Morse. Well, with respect to the CVC itself, it is a 
public--it will be a public access building. So there will be 
people who come into the building and use the CVC but not take 
a guided tour. So the possibility exists, and this is something 
that we have talked about very openly, is that people will come 
into the building and remain and may not have any business 
other than they just want to seek shelter, perhaps, or have a 
cool place to sit. So there will be and can be folks there who 
have no business other than that. But certainly, in our 
operational planning, we have considered that and are prepared 
for that.
    Mr. McCarthy. Okay. And I guess my only question--I will 
wait for Ms. Rouse. How do you view the CVC? I mean, do you see 
it as a tourist destination or just enhancing the visitors' 
experience? Yes. Because I almost think, at the very beginning, 
when it first opens, it is going to be a destination point.
    Ms. Rouse. I would agree with you. I think it is going to 
have a destination quality about it. The exhibition, which is 
16,500 square feet, is really a remarkable accomplishment in 
terms of telling the history of the Capitol building and the 
history of the Congress. So I think that that alone will be an 
opportunity for people. If we do what we want to do with the 
Web site and making it an extension tool, not only can you get 
a reservation, but we will have, hopefully, curriculum tie-in 
material so someone who has a visit with us can have a pre- and 
a post-experience on their own that reinforces what we are 
doing.
    I think there will be quality. We know in the first 18 to 
24 months, we will see a lot of people coming into the Capitol 
and through the CVC, which is why the coordination with the 
Visitor Services Department and the Capitol Police will be so 
important, so we can maintain the proper number of people in 
the space, hold them if we need to. We know we have 90 days 
typically in a year when we are at high capacity, and that is 
usually when the eighth graders are all studying civics across 
the country, and they are coming to us as part of their 
Washington or Smithsonian experience. So, yes, it is going to 
be an extension, and we hope to have it be a very good 
experience for people when they come to the Capitol.
    Mr. McCarthy. If I could have just one last one to follow 
up on Mr. Capuano's question, are the hours going to be the 
same like within the Capitol? Say I am, late hours, we are 
still open, and I am taking some constituents around that had 
dinner, could I go into the CVC then? I wouldn't see the movie, 
I would understand that, because I don't have the ticket, but--
--
    Chief Morse. It is my understanding the building hours are 
the same as the Capitol are currently.
    Mr. McCarthy. So if the lights are on in the Capitol, the 
CVC is the same, an extension of it.
    Chief Morse. Right. It is an extension of the Capitol 
Building in that regards.
    Mr. McCarthy. Okay. Thank you.
    The Chairman. Ms. Davis.
    Mrs. Davis of California. Thank you. Thank you very much. 
And thank you, Mr. Stevens, for helping us out yesterday and 
taking us around.
    One thing I want to clarify in terms of the tours, and part 
of it is getting from A to B. Constituents arrive at Longworth, 
and the staff member is with them. Do they still come through 
the basement, and can they enter the Capitol and then go onto 
the CVC? Or are they basically asked to come around the other 
way? Obviously, I am thinking of bad weather, inclement 
weather. How do they get from one place to the other? Will 
there be any changes?
    Mr. Stevens. If I may, that is a decision certainly that is 
beyond the scope of this panel. That is a leadership and 
committee level decisionmaking process for both the House and 
Senate. And I might also point out, with regard to some of the 
previous questions about the staff-led tours and integration 
and hosting, and you get into a lot of different verbiage to 
describe these staff-hosted tours, which is a very good 
explanation I think, those decisions, and it was asked if it 
was on the table to prohibit staff-led tours, not by this 
panel. Again, those are decisions made on a leadership level. 
So that is beyond our scope. So that is a question I really 
couldn't answer for you. I know the Chief would have some input 
as to routes and so forth because of staffing concerns there. 
And I will let him speak to that. I think I answered your 
question.
    Mrs. Davis of California. Yeah. Chief, could you speak to 
that? Because that really does make a difference. I think that 
it is a magnificent entrance, and I understand why the hope 
would be that visitors would be entering from that side, but 
the reality is they come to our offices first. And what are we 
going to be doing to change that?
    Chief Morse. Well, the recommendation is that the design 
and construction of the main entrance of the CVC is exactly for 
this type of screening and level of people entering a building. 
And the technology is there, the design is there, and it is the 
optimum environment to----
    Mrs. Davis of California. I understand that, Chief, but 
will people still have access through the basement?
    Chief Morse. Well, it is our recommendation that all 
visitors go through the CVC main entrance. All visitors, 
official business, go through the screening at the main 
entrance of the CVC, because that is the optimum security 
screening design for the threat environment that we face.
    Mrs. Davis of California. Given, though, that they are in a 
different place when they start, and it is raining cats and 
dogs, I am just wondering, are people not going to be able to 
go through the basement if they are trying to access the 
Capitol?
    Chief Morse. It is only my recommendation that the optimum 
security screening take place at the front of the CVC. And the 
reason I give you that information is so that you have all the 
information you need for the committees of jurisdiction to make 
that decision.
    Mrs. Davis of California. Okay.
    Chief Morse. But the number of people, the level of 
security screening, the threats that we face, the main entrance 
of the CVC provides an environment that we can do that very 
safely.
    Mrs. Davis of California. I appreciate that. It sounds like 
that, and I guess, Mr. Chairman, I would suggest, I mean that 
may be something that we still need to take a look at.
    Mr. Ehlers. Would the gentlewoman yield?
    Mrs. Davis of California. Sure.
    Mr. Ehlers. Just a question. When we go through the Cannon 
tunnel, there is going to be a new entrance to the CVC off the 
Cannon tunnel. Are you going to have any security screening at 
that location or not?
    Chief Morse. Well, we will still have a level of security 
there, because it is an access point to the Capitol.
    Mr. Ehlers. Right.
    Chief Morse. And we certainly have business and staff and 
so forth who traverse back and forth. But if you have ever been 
down to that particular area during a heightened tourist 
season, it is not--from the environment, the lighting, the 
conditions there are very overwhelming from a heat and crowding 
standpoint, and people cannot traverse. So it is just not 
construction-wise designed to facilitate those numbers of 
people with that level of screening. So that is why it backs 
up.
    Mr. Ehlers. No, I am talking about the location of the 
entrance to the CVC within the Cannon tunnel, not the entrance 
to the tunnel. They go into the CVC from there. Is there 
anything in the CVC to provide security for that portal?
    Chief Morse. There would be officers and, you know, systems 
to control access there. But as far as people actually being 
screened, that would still take place at the entering point 
that it currently does on the House Office Building side.
    Mr. Ehlers. Okay.
    Mrs. Davis of California. I had a question about the 
greening of the CVC. And I also--it is extraordinary. It really 
is. I think it is going to provide an amazing experience for 
people. I have some concerns about whether there is--you know, 
there are obviously Member spaces as well as visitor spaces. I 
don't know proportionally what that is. It looked to me like a 
lot of the space down there is for Members' meetings and other 
places to congregate. But how extensive is the greening of the 
CVC? Clearly, retrofitting the Capitol is difficult as we green 
it. But what about the CVC, and how much energy will be saved 
there by the actions that have been taken?
    Ms. Rouse. Actually, I am really not sure. I would be happy 
to get back to you with the information for the record on the 
greening of the Capitol. I know it has been an aggressive part 
of the thinking of the architects and the engineers over the 
last 5 or 6 years, so we will get back to you for that.
    Mrs. Davis of California. Okay.
    Thank you, Mr. Chairman.
    The Chairman. We have a vote. And I know that Chief Morse 
has to leave and that Assistant Chief Nichols may be able to 
stay. I would like to ask you if we can come back. There are 
two issues I think we need to clear up that are not quite clear 
right now. They are the entrances that we can take, our staff 
people, and can we take staff people by themselves? I think we 
need to clear that up and be concrete about that. So does 
everybody agree we can come back? We will recess until the vote 
is over, which is probably about 45 minutes. And I thank you, 
and we will be in recess.
    [11:55 a.m.]
    [Recess.]
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 40621A.017
    
    The Chairman. I would like to call our hearing back to 
order. I want to thank the distinguished panelists for staying 
around. And we live our life by bells, so we are sorry we had 
to run for the bell and answer the bell and run back again.
    There were--what I understand--and, again, please, anybody 
that needs to ask a question or clarify an answer that you 
might not be happy with, you can be recognized. But there are 
two issues I would like to clarify.
    It was my understanding that our staff, when they bring a 
tour into the Capitol, into the new Visitor Center, that a 
staff member can take 20 people from a Member's office or 10 
people, whatever the amount may be. And if they go there, a 
couple of things will happen. They will be shown priority and 
be moved up. And it was my understanding that--I thought that a 
staff from the CVC would then join us, for security reasons, 
because if they have to evacuate, they know where to evacuate, 
they know where to go. But it is also my understanding that a 
staff member from a Member's office wouldn't be able to take 
the group by themselves.
    But I think that what is important, as Mr. Capuano pointed 
out, and I think other Members pointed out when they sent 
myself and Mr. Ehlers a letter, a lot of times they may want to 
see things that they want to see pertaining to the city, the 
State that they are from. And maybe they don't want to or need 
to see other things, not that they are not important, but they 
are not that important to that group and their time may be 
limited, rather than go through the whole process.
    So is it my understanding that if I send or anybody sends a 
group of people over with a member of our staff, that we do 
appreciate and I appreciate the training you provide our staff. 
I am sure that they will learn more as they give more tours, 
because we have members on my staff that take the tours, and 
they know almost as much as I do.
    It is my understanding that they could come with a group, 
that they would get shown priority, not have to wait. Then you 
would put a tour guide with our person to assist them in where 
they would want to go, and then maybe to add to some 
information that they may have. But they wouldn't go by 
themselves, for security reasons, because if there is an 
evacuation, God forbid, the tour guide would know exactly where 
to go.
    That is what my understanding is, that we were going to 
achieve increased security by having our staff people come with 
our own groups?
    And then a next question would be--and I agree with Mrs. 
Davis. Maybe we can figure out another entranceway. And I don't 
want to put more burden on you than you have. But there are 
other entrances in there that maybe when the staff members 
come, they get preference to go into the Capitol with a group. 
One option is entrance through Cannon. I know it is not well-
lit, maybe not big enough, but if we could figure that out, 
instead of going out and around. Because they are in the 
Longworth, they are in the Cannon, they are in the Rayburn. 
They have to come back out, go around and get in.
    I get, and I think other Members do, too, I get raves from 
people that come and visit me, you know, ``Your staff member 
was great. They showed us A, B or C.'' And that is a pretty 
nice thing for us to have for our constituents. So if you can, 
any or all three, could help me clarify.
    And if I am not stating this properly or correctly, 
anybody, Mr. Capuano, Mr. Ehlers, Mrs. Davis, if you need to 
add anything to that question, those are the two matters that I 
think we need to have some clarification on.
    Ms. Rouse. Chairman Brady, your understanding concurs with 
that of the leadership with the tours. The intention is to have 
staff members from Members' offices be able to have the option 
of dropping their guests off at the welcome theater. There is a 
special door, incidentally, for members. So you will be able to 
have your guest get preferential treatment into that room.
    The tours are time-based. So there will be a cycle back and 
forth between each of the two welcome auditoriums. So a staff 
member can host their guest throughout the entire tour or they 
can drop them off and rejoin with them after they come off of 
the tour.
    I might add that the experience within the Capitol Visitor 
Center, given the exhibitions, the other amenities, could take 
up to 2, 2\1/2\ hours for a Member's staff person to be away 
from their duties and their offices. So we are trying to help 
them as staff members by having the guide service be able to 
provide that expertise for the tour and then allow the staff 
person to join as needed.
    As for training, our goal of the CVC is to have top-level 
training for all 318 staff people. And a component that we are 
going to develop is to be able to have not only guest services 
but to have an educational-based tour system where we can add 
in what we need to add in. And Tom Stevens's staff, as guides, 
will be able to personalize a tour. However, a staff person on 
a tour will have every option at any moment to simply take off 
their listening device and add whatever they would like into 
the tour.
    But even better, if a staff person can tell the guide, ``I 
have guests from Pennsylvania,'' ``I have guests from 
Michigan,'' they can add those little bits into the tour as 
well. So we are trying to have the ultimate level of 
flexibility to aid the staffer and to aid the Member in making 
that experience better.
    And as we move forward in developing our gift shop items, 
we are also trying to make sure we reflect that type of 
diversity of States within our gift shop items as well.
    The Chairman. Two quick things.
    You would have the adequate staff that, if we sent people 
over there from our office--because they will be coming 
sporadically. You will have adequate staff to be able to do 
that?
    Ms. Rouse. It is proposed that we would have adequate 
staff.
    The Chairman. Because the last thing you would want to have 
happen, if we are coming unannounced, is for our groups to be 
waiting there. As you can understand, then it is a poor 
reflection on the Members.
    And the second thing is, could the tours be customized? If 
I send a staff member over and they only have an hour, they 
want to see like six or seven things that pertain to their 
particular interest that they have, whatever State they are 
from, our staff person can tell your guide, ``We want to 
customize and just go here, there and there.'' That could be 
arranged?
    Ms. Rouse. That could happen. We are hoping to have, at the 
CVC, very, very good relationships with all the Members' 
offices, building on the relationships that Tom Stevens has. 
The more notice we have, the better we will be able to 
customize the tours.
    The Chairman. Sure. But it can be customized to the staff 
member that comes with the Member's group?
    Ms. Rouse. Absolutely.
    The Chairman. Any----
    Mr. Capuano. I want to follow up.
    The Chairman. Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman.
    That is a significantly different answer than what I got 
before, so I need to make sure I understand it again.
    Last time I asked, I asked, is this in addition to staff-
led tours? I was told, yes. That is a fine answer. Now I am 
being told that it is not.
    Which is it? Can my staff bring people over and do tours 
like they do now, or can they not?
    Mr. Stevens. I think--let me clarify. What staff are doing 
now is they are bringing people to the Cannon tunnel. There 
they are screened and regulated, as they are ingressed to the 
Capitol Building. And at that point, they can mingle the 
building without a guide. The concept being offered--
    Mr. Capuano. It is not without a guide. It is with a staff 
guide. It may not be with an official guide, but they do have a 
guide, my staff.
    Mr. Stevens. That is correct. That is correct.
    So the process of coming over is going to be, as you bring 
them into the Visitor Center, the additional part would be the 
staffer then may, which they cannot now, put them with the--
they would be put with one of the groups with a professional 
guide----
    Mr. Capuano. So no choice?
    Mr. Stevens [continuing]. And be brought through the 
building.
    Mr. Capuano. There is not an option to the issue.
    Mr. Stevens. It is not an option of going on one's own.
    Mr. Capuano. Yes, as they do now. Can they continue to do 
what they do now?
    Mr. Stevens. Well, the recommendation, I believe, by all 
the workgroups is that they should not be on their own. They 
should be with a professional guide.
    Mr. Capuano. Well, then let me ask, what is the punishment 
when my staff decides to do that? When I direct my staff to do 
that or to pull somebody out of a tour because they don't have 
2 hours or they don't want to do to 2 hours or they don't want 
to stand on their feet for 2 hours or they are just tired or 
they are bored, or whatever the reason is, what are you going 
to do? Are you going to arrest my staff?
    Chief, maybe you can answer that.
    Chief Morse. No, sir. I wouldn't arrest your staff.
    Mr. Capuano. Thank you. I appreciate that.
    Well, then, if that is the case, then I am going to tell 
you very clearly, as clearly as I can: Expect, on occasion, my 
staff to have separate, individual, identifiable tours on their 
own.
    Now, I like the option. I understand fully well. But I will 
tell you unequivocally that if I have no option, you are trying 
to get between me and my constituents. And that will not be 
allowed by me. Very simply put, I won't allow it.
    Now, that doesn't mean that I don't want to encourage them, 
it doesn't mean I won't try to cooperate, doesn't mean that I 
won't continue to encourage. I don't have any problem if you 
want to require staff to take these trainings, have them know 
all the safety exits, all the safety tours.
    By the way, just as a point of information, I don't know 
where all the exits are in the current Capitol, never mind the 
CVC. Who is going to be walking around with me with a little 
walkie-talkie, telling me what to do? And my staff that are not 
on a tour, my staff that are over there working, different 
issue.
    I have no problem at all trying to enhance the experience, 
trying to make it a better one and giving people options. And I 
have no problem at all trying to encourage it and push it 
along. I have a real serious problem about living in a bunker. 
And I understand fully well that maybe that is a risk. I know 
all that. If you want to have my people sign a document saying, 
``I will take the risk to walk around the Capitol on our own,'' 
fine. Those are reasonable things.
    But I will tell you, unequivocally, from my office--now, 
maybe it is because my constituents live so close. I won't 
speak for anyone else. I have a lot of people who visit me from 
Boston. And they are not all on big tours. They are not all 
school groups. We have that, too. Occasionally it is just a 
family. That is the regular course of business in my office, a 
family. Or somebody here that is showing their kids usually is 
what it is.
    I will tell you now that if you think you are going to be 
able to stop it, you had better have some contingency plans, 
because you are not going to be able to stop it. And, again, 
you know, if you are not going to arrest them, Chief, you are 
really not going to be able to stop it. That is number one.
    Number two, I want to make sure that I clearly understand. 
Is the idea to have every single person who comes to visit my 
office go through the CVC for security purposes? Is that the 
proposal? Or just tours?
    Chief Morse. Sir, at the Capitol Building itself, the level 
of security screening is different than it is on the House and 
Senate Office Buildings. So the level of screening is enhanced 
once you come to the Capitol itself.
    Mr. Capuano. Good. So people can still come into the 
Longworth? Okay, good. I got it. I just wanted to make sure I 
understood that.
    Thank you, Chairman.
    The Chairman. Thank you for your clarification.
    Mr. Capuano. Was I unclear?
    Mr. Ehlers. No, you are never unclear. You may get 
arrested, but you are never unclear.
    Just two items, Mr. Chairman. First of all, just getting 
back to the issue we raised before and Congresswoman Davis's 
question about the entrance of the tunnel and my attempt to 
clarify it.
    You are going to have officers there all the time, right, 
for staff members and so forth, going through that entrance 
into the CVC?
    Chief Morse. Not on the CVC side. The current security 
screening process that takes place on the Cannon side of the 
tunnel would still be in place, because there is a level of 
security that we have to maintain.
    Mr. Ehlers. Okay. So staff members will just walk in; they 
won't be screened at all when they go in the CVC, or anyone who 
is in the Cannon tunnel. Is that correct?
    Chief Morse. Right. Anyone who is authorized would be able 
to traverse the Capitol as they do today.
    Mr. Ehlers. Yes. Okay. But, I mean, from the Cannon tunnel 
into the CVC, whether it is Members or staff, they can just go 
through? There will be no screening point there?
    Chief Morse. There will be--there wouldn't be the type of 
screening that there is today. But at all access points to the 
Capitol that are monitored by police officers, there is either 
screening that takes place, physical screening, or there is 
identification of the person who is traversing the building to 
ensure that they are authorized.
    Mr. Ehlers. Okay.
    Finally, Mr. Chairman, I just wanted to relate an anecdote. 
Some years ago, I came to the Capitol with a group of county 
commissioners, of which I was one. And we stopped by to see our 
Congressman, and he took us on a personal tour of the Capitol, 
and I thought that was grand. I didn't know where he had the 
time, but he spent a couple of hours taking us all around the 
Capitol, explaining it. It took great delight in it.
    A few years, about a decade later, when I was elected to 
the Congress, I made it a point of having lunch with each of my 
predecessors who were living. And when I spoke to him, I said, 
``Do you have any advice for me?'' he says, ``Yes. Don't ever 
take anyone on a tour of the Capitol.'' I said, ``Really?'' I 
said, ``You did it for me, and you seemed to enjoy it.'' he 
said, ``Never, ever take anyone on a tour of the Capitol.'' I 
said, ``Why not?'' he said, ``Because they go back home and 
they tell their neighbors, `Oh, it was so great. We went to the 
Capitol and Congressman X took us on a beautiful tour.' '' he 
said, ``I was so inundated with requests for tours, I couldn't 
handle it. Because their buddy got it, why couldn't they get 
it?''
    So when I came here, I have never given a tour of the 
Capitol for that reason, even though I enjoy touring it myself.
    I think the comments we have heard from Mr. Capuano 
represent the concerns of a number of Members. And I think we 
will have to make certain that all of the Members know what we 
are talking about, because quite a few Members that have talked 
to me, Mr. Chairman, don't really understand the new 
arrangement. They have the idea that their staff members are 
not going to be allowed to give tours at all.
    I keep telling them, there is a distinction between a 
staff-led tour and a staff-hosted tour. A staff-led tour is 
what we have now, where a staff member leads the tour now. A 
staff-hosted tour is what we are talking about, where the tour 
guides and the staff member will travel together through the 
Capitol.
    The perks, if you want to call them that, that the visitors 
receive from the Member's office is not having to wait in 
lines, to proceed to the head of the line, and also to divert 
the tour anytime they wish to show them items of interest to 
that particular city or State that they come from.
    So that was a plan that goes from staff-led to staff-
hosted, but the staff member is still there and still in charge 
of making sure that their constituents see all the items of 
interest from their particular area. And I don't think most 
Members understand that. And I think that partly led to the 
confusion here. Now you understand it clearly, at this point.
    Mr. Capuano. If the gentleman would yield, I understand it 
now and----
    Mr. Ehlers. And you are still objecting. And I understand 
that. But I think a lot of Members probably don't understand it 
at all and are objecting without understanding what we are 
proposing. When I have described this to a number of Members 
individually, they are okay with it.
    With that, I will yield back.
    The Chairman. Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you to all of you.
    I still would like to talk for a second about the logistics 
of this. And it may be that you haven't really, in the planning 
and the vision of how people are going to enter, the fact that 
you might have people coming from the Cannon tunnel into the 
Capitol--I know that there is a door for staff members to enter 
right near the theater, and that is great. So that they could 
come around through the Capitol and join a group. And with cell 
phones today, that is pretty easy to do.
    But, for example, we might have a family of eight, and, 
again, it is a cold, rainy day. Will they be prevented, in any 
way, from going through Cannon tunnel, walking through the 
Capitol and going through that door to come back around the 
CVC, if they are accompanied by a staff member?
    Chief Morse. Based on my security recommendations, which I 
have testified to, and the fact that the optimum security 
screening is at the entrance to the CVC, it is my position that 
that is the optimum security screening point.
    I know that that is not a--that answer means that people 
may have to traverse in climates that are, you know, sometimes 
cold and wet and hot. But that is what that recommendation 
means.
    And I am only providing that recommendation so that you 
have totality of circumstances when you make your decision on 
where visitors will enter. And it is our recommendation that--
--
    Mrs. Davis of California. You know, I appreciate the 
optimum situation. But if people are trying--again, we have 
eight people for a family, you know, maybe somebody who is 
elderly, somebody who is young. And will they be stopped and 
unable to move beyond the Cannon screening area and told there 
is no option but to go outside and to go back around?
    Chief Morse. Our officers are certainly fully prepared to 
assist those with infirmities or special circumstances. And 
they always have, and they always will. But in talking about 
this in large numbers and the concept itself, you know, the 
front entrance of the CVC is the optimum security screening 
point.
    Mrs. Davis of California. Do you think that there would be 
accommodations made, though, again, for a day that that is 
necessary, that they would be able to actually do that? Is 
there some--I guess what I am asking is, is there some thinking 
that is going on that would allow for that situation?
    Chief Morse. Those types of planning are not something that 
I have been involved in, as far as the moving of people. Simply 
the security recommendations that allow them to make those 
decisions and plan those things and make options. But as far as 
other alternatives of moving people, I am not involved in that 
directly. Only when it involves the security aspect and 
recommendations that we provide.
    Mrs. Davis of California. Uh-huh. Is the screening going to 
be substantially different? If a person is screened in the 
Cannon tunnel, will they not get as thorough a screening as 
they would at the CVC?
    Chief Morse. They would, but the conditions--the same type 
of technology is used. The problem with the Cannon tunnel is 
that, certainly, it is obvious that it is not designed for that 
type of security screening. It is also quite cramped, and there 
is a lot of daily business that traverses through there. At 
times, it gets extremely hot. We have had people have medical 
conditions at that location. We have had situations where we 
have had to evacuate the building. Large numbers of people down 
there. It becomes very crowded. People get very frantic, 
claustrophobic, et cetera. So it is just not an environment 
that you want to stage that many people. And that is really 
what it is all about for me, as far as, is their safety and 
comfort there, and our ability to protect them and provide them 
with the services that they deserve.
    So, with the CVC, the main entry points to the CVC have all 
those optimum conditions and environment----
    Mrs. Davis of California. Right. Yes.
    Chief Morse [continuing]. That make it more conducive to 
the visitor experience that these folks are trying to----
    Mrs. Davis of California. I thoroughly understand that. But 
I just think that we are all human beings, and as a matter of 
convenience--and I think the tendency of staff members is going 
to want to be to bring people through the tunnel, especially in 
inclement weather. And so, I just think we need to be prepared 
and think how to do that, and certainly on those days that we 
can anticipate that is going to be a problem, so you don't have 
to send people outside in order to get to the CVC.
    You know, we are telling them that we are tying to prevent 
you from being in inclement weather by not having to stand the 
way they do today, and then we are saying, but, you know, we 
want you to go out there in the snowstorm. You know, that is 
just not going to work. So we just need to be prepared and 
thinking about that, or else it is not going to be a pleasant 
experience for people, because they are going to think, ``What 
were those people thinking?'' and that is going to be 
important.
    Just quickly, too, about the security arrangements. And if 
people are going to be evacuated from the building, are they 
likely to be out in the plaza? Is that what we are thinking 
would happen?
    Maybe these are questions you can't necessarily answer. But 
I know, as Members, you know, we sometimes think, ``Gee, here 
we are outside. Doesn't make a lot of sense?'' And there will 
have to be specific arrangements made for each kind of threat. 
But is that generally thought, that you would just evacuate up 
into the plaza?
    Chief Morse. Well, without getting into too much detail, 
what I can say is that the same security precautions for 
various types of incidents will have the same special operating 
procedures for those events with the CVC. And that is built 
around our perimeter security. And it will be a seamless 
transition and a safe environment.
    Mrs. Davis of California. Thank you. Thank you for the work 
that you do.
    Thank you.
    The Chairman. Mr. Ehlers.
    Mr. Ehlers. One more question.
    Mr. Stevens, on the tour groups that you have taken through 
so far, do you limit each group to a certain number of people?
    Mr. Stevens. We currently are taking 40 visitors with each 
professional guide; staff, 15.
    Mr. Ehlers. Okay. So 40 is the norm.
    Mr. Stevens. Right.
    Mr. Ehlers. I don't know if anyone here can answer the 
question of the current staff-led tours. What are the size 
variations of those? Some I have seen have seemed very large.
    Mr. Stevens. They are actually limited to 15 per staff 
member. Occasionally what will happen, the larger groups will 
make a request. A staffer who does tours will arrange with 
other staff members to actually break them down into those 
small components to get them in the building and then regroup, 
if you will, and give a tour to----
    Mr. Ehlers. So your vision in the future any staff-led or 
staff-hosted tours would also be that small, right?
    Mr. Stevens. Well, actually, the advantage to coming to the 
Visitor Center is, when you bring that group over, we can 
handle groups--each theater can handle up to 250. So, in 
essence, we could handle all 250 simultaneously and start their 
tours within 90 seconds of each other in 40-person increments.
    Mr. Ehlers. Okay. All right.
    And I believe I may have a solution for your problem, 
Congresswoman Davis. I will talk to you about it afterwards.
    Thank you very much.
    Mr. Capuano. Mr. Chairman.
    The Chairman. Mr. Capuano.
    Mr. Capuano. Mr. Stevens, again, I am the one who seems to 
have the most concern with this. I have no problem at all with 
reducing the size. When you get to 15 people, that is a school. 
And I have no problem putting them in a different category than 
I do the small family groups, whatever size, four, six. And I 
think treating them differently or having exceptions for 
smaller groups will handle most of my concerns.
    Chief, here is the practical thing of what is going to 
happen if you don't have some normal procedure for us to use on 
occasion, again, with these smaller groups. I am accepting the 
larger groups; that is fine. We have had this discussion before 
on the bus tours. I have no problem with these. And where the 
magic number is, I don't know.
    But if I have a family of four and it is raining out, I am 
going to tell it you what is going to happen. The Member of 
Congress will be called out of his office or out of a hearing 
to walk this family through the Cannon checkpoint. And my 
presumption is that won't change. If I am walking in with a 
family, they are not going to stop me. And I know that. And 
your staff is very good and very professional. It is not a 
problem.
    But I am simply saying, that is the pragmatic result of an 
absolute ban. And all I am suggesting is, again, maybe it is a 
size--and I fully understand--you know, I am not looking for 
school classes, for classrooms. That is different. I am talking 
about, for me, my concern is the individual family unit or a 
few senior citizens, whoever it might be, the smaller groups, 
four to six people, something like that.
    And I am just begging you not to do to us what the White 
House has done to us, that we can only get people in if we show 
up at 8 o'clock in the morning and walk them through the line. 
We can't even check them in; we have to walk them through the 
line. I have always thought that was a way overreaction. Fine 
right after 9/11, but now it is ridiculous.
    And I am just begging you to come up with certain normal, 
standard procedures to just accept whatever the reality of the 
fact is probably going to be. I am probably not going to walk 
down a classroom of 30 kids, and I wouldn't have a hard them 
telling them no. I would have a very hard time, and I wouldn't 
do it, telling, you know, some mother pushing a baby carriage 
or somebody with their mother who is in a wheelchair or 
whatever, saying, ``Sorry, you have to go over to the CVC.''
    So I am just asking that, you know, at some point, to come 
up with--again, I am not looking for exceptions. I am looking 
for standard operating procedure. I am not looking for your 
offices to make judgments. Just, here are the rules, here is 
what they are, and let us know what they are and just accept, 
understand the reality of the situation.
    Thank you, Mr. Chair.
    The Chairman. Thank you.
    I just have two quick thoughts.
    When this opens, there will be a grand opening. Prior to 
that, think about having an opening for the workers that are 
there, thanking them. It is always good PR for that to happen. 
This way, let them know that we all appreciate them, all the 
work that they have done for the years that they have been 
there.
    And maybe also think about the neighbors that were probably 
inconvenienced with the construction sites too. Maybe have a 
little something for them too, by themselves. They don't need 
us to be there; probably don't want us to be there.
    But if you could do that, that would be nice for the 
workers that work there and for the neighbors that were 
inconvenienced with the trucks and the noise and the traffic 
and whatever.
    And for the record, Chief, I will not be accompanying any 
tours that Mr. Capuano has sent over there.
    Chief Morse. That is why I have an assistant chief.
    The Chairman. Thank you.
    Any other questions?
    Thank you all. I would like to thank all the witnesses for 
your time and for your testimony.
    This hearing is now adjourned.
    [Whereupon, at 1:00 p.m., the committee was adjourned.]

</pre></body></html>
